   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
       Administered by
    the State of Vermont,
Agency of Natural Resources,
   Department of Fish and
 Wildlife, from July 1, 2001,
   through June 30, 2003




 Report No. R-GR-FWS-0005-2004

                   September 2004
                  United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191


                                                                             September 16, 2004

                                     AUDIT REPORT
Memorandum

To:          Director
             U.S. Fish and Wildlife Service

From:        Joe Ansnick
             Director of External Audits

Subject:     Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
             Grants Administered by the State of Vermont, Agency of Natural Resources,
             Department of Fish and Wildlife, from July 1, 2001, through June 30, 2003
             (No. R-GR-FWS-0005-2004)


        This report presents the results of our audit of costs incurred by the State of Vermont,
Agency of Natural Resources, Department of Fish and Wildlife (Department), under its hunting
and fishing programs and costs claimed under Federal Assistance grants from the U.S. Fish and
Wildlife Service (FWS). The audit included claims that totaled approximately $7.7 million on
FWS grants that were open during the State’s fiscal years ended June 30, 2002 and 2003 (see
Appendix 1).

      We found:

      ¾ Unsupported costs of $29,120 for payments made to another State agency.
      ¾ Unreported program income of $242,919 on grants for the operation and maintenance of
        wildlife management areas ($55,289) and for aquatic education ($187,630). In addition,
        the Department bartered with farmers to leave crops unharvested in exchange for
        additional acreages to farm on a wildlife management area, the value of which should
        have been reported as program income.
      ¾ A firing range built on Sport Fish Restoration Act funded land that prohibited public
        access.
      ¾ The computer equipment inventory was not current.
      ¾ The State did not have an adequate land management system that identified lands
        purchased with Federal Assistance funds and with license revenues.




                                                1
      ¾ License certifications for calendar years 2001 and 2002 were overstated by 1,031 and
        1,974, respectively.
      ¾ Property acquired with Land and Water Conservation funds were maintained with
        Federal Assistance funds instead of State funds.

       The Department and FWS responded to a draft of this report on August 18, 2004. We
summarized the Department’s responses after our recommendations. The FWS stated that it
would work closely with the Department in the development of the Corrective Action Plan. We
also added our comments regarding the Department’s responses.

        In accordance with the Departmental Manual (361 M 1), please provide us with your
written response to the findings and recommendations included in this report by December 16,
2004. Your response should include information on actions taken or planned, including target
dates and titles of officials responsible for implementation. If you have any questions regarding
this report, please contact me at (703) 487-5345 or Mr. Tom Nadsady, Audit Team Leader, at
(916) 212-4164.

cc:    Regional Director, Region 5
        U.S. Fish and Wildlife Service




                                                2
                                             Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology

We performed our audit at the Vermont Department of Fish and Wildlife (Department)
headquarters in Waterbury, Vermont. The audit work at the Department included claims that
totaled approximately $7.7 million on FWS grants that were open during the State’s fiscal years
(SFYs) ended June 30, 2002 and 2003 (see Appendix 1). We also visited a fish hatchery and
several wildlife management areas, District Offices, a State Police dispatch office (where a
Wildlife Conservation Officer maintained his office), and boat ramps (see Appendix 2). The
objective of our audit was to evaluate:

               ¾ the adequacy of the Department’s accounting system and related internal controls;
               ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS;
               ¾ the adequacy and reliability of the Department’s hunting and fishing license fees
                 collection, certification and disbursement processes;
               ¾ the adequacy of the Department’s asset management system and related internal
                 controls with regard to purchasing, maintenance, control and disposal; and
               ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                 requirements.

We performed our audit in accordance with government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants; interviews with employees to ensure that personnel costs charged to
the grants were supportable; and a review of the Department’s use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, and effectiveness of the Commission’s operations.



1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777




                                                     3
Prior Audit Coverage
On February 25, 2000, we issued audit report No. 00-E-246, “U.S. Fish and Wildlife Service
Federal Aid Grants and Payments to the State of Vermont, Agency of Natural Resources,
Department of Fish and Wildlife, for Fiscal Years Ended June 30, 1996, and 1997.” The State
Auditor also issued single audit reports on the State of Vermont for SFYs 2001 and 2002. The
Department was considered a major program in both audits and selected for audit in 2001. It was
not audited as a major program in 2002. We reviewed these audits, but they did not contain any
findings related to the Department. Due to delays in the issuance of the 2002 single audit (issued
in November 2003), the SFY 2003 single audit was also delayed and had not been issued as of
the date of our audit exit on May 14, 2004.




                                                4
                                  Results of Audit
Our audit disclosed that:

   ¾ except for findings A and B below, the Department’s accounting system and related
     internal controls adequately and accurately accounted for grant and license fee receipts
     and disbursements;
   ¾ the direct and indirect costs were accurately reported and claimed;
   ¾ except for finding F below, the Department’s hunting and fishing license fees collection,
     certification and disbursement processes were adequate and reliable;
   ¾ except for findings D and E below, the asset management system accurately identified
     and tracked personal and real property with regard to acquisition, control and disposal;
     and
   ¾ the State had adequate legislation that assented to the provisions of the Acts and
     prohibited the use of license fees for anything other than the administration of the
     Department.

However, we found that:

   A. Employee Labor Costs. The Department reimbursed another department for services it
      provided. However, that reimbursement exceeded the costs incurred by $29,120, and the
      services provided by the other department included two ineligible activities.
   B. Program Income. The Department did not report $242,919 in program income from the
      sale of timber, from the sale of an agricultural lease at the Dead Creek Wildlife
      Management Area, and from the Aquatic Education program enrollment fees and
      donations at the Green Mountain Conservation Camps. It also failed to report the value of
      unharvested crops received from farmers in exchange for permission to farm more
      acreage in wildlife management areas.
   C. Diversion of Use. The Department allowed the Division of Law Enforcement to build a
      firing range on Sport Fish Restoration Act funded land and has excluded the public from
      the use of those lands.
   D. Personal Property Management. The Department has not kept its computer equipment
      inventory current.
   E. Land Asset Management. The Department and the State do not have an adequate land
      management system to maintain control of land purchased with Federal Assistance funds
      or with license revenues.
   F. License Certifications. The Department’s annual license certifications for calendar years
      2001 and 2002 were overstated because they included 1,031 and 1,974 duplicate hunting
      and fishing license holders, respectively.
   G. Land and Water Conservation Funds. The Department used Federal Assistance funds to
      maintain property acquired with Land and Water Conservation Act funds. The Act
      required that the State use its own funds to maintain Land and Water Conservation
      acquired lands.




                                              5
A. Employee Labor Costs $29,120 (Federal Share $21,840)
1. Unsupported Labor Costs. The Department claimed $175,900 in labor costs under Grant W-
46-D-22, and we identified support for $146,780 of these costs. The balance of $29,120
($175,900 less $146,780) was unsupported.

On April 8, 2003, the Department of Fish and Wildlife signed a one year Memorandum of
Understanding (MOU) with the Department of Forests, Parks and Recreation (Parks and
Recreation), which was effective on July 1, 2002. This agreement provided for some wildlife
habitat development work to be performed by Parks and Recreation staff. The agreement also
provided for the direct charging of Parks and Recreation employee costs to Grant W-46-D-22
program activities.

For SFY 2003, time codes representing wildlife habitat development were not made available to
Parks and Recreation staff for time reporting. Accordingly, Parks and Recreation staff charged
time to time codes that did not identify any work as wildlife habitat development. However,
Parks and Recreation staff maintained log books in which they recorded their wildlife habitat
development work. We found support for $146,780 (except for those costs for ineligible
activities discussed in A.2 below) of wildlife habitat development work consisting of $109,880
for labor costs, which were documented by employee log books, and $36,900 for shared regional
secretarial labor and other costs. As a result, we concluded that Fish and Wildlife could not
support the difference of $29,120 (Federal share $21,840) of wildlife habitat development costs
incurred by Parks and Recreation and claimed by Fish and Wildlife under Grant W-46-D-22.

For SFY 2002, there was no agreement between the two Departments. Fish and Wildlife made
transfers of $85,359 to Parks and Recreation for wildlife habitat development work, which was
supported by logbooks and for shared secretarial labor costs. The two Departments evenly split
the secretarial labor costs based on the similar staff sizes of each Department. We concluded
that the secretary’s time worked for each Department should have been recorded on time sheets
instead of being split evenly based on the staff sizes of each Department.

We believe that restricting the use of time codes for Federal Assistance grant activities to staff of
Fish and Wildlife is an appropriate management control. In this way, Parks and Recreation was
forced to account for their activities to Fish and Wildlife. This is an appropriate grants
management tool that should have allowed Fish and Wildlife to properly administer the fish and
game activities of the State. This control was circumvented when transfers were made to Parks
and Recreation without requiring Parks and Recreation to properly account to Fish and Wildlife
for the costs that justified the transfers.

2. Ineligible Work Activities. Among the activities conducted by Parks and Recreation under
the MOU were maintaining horse trails and eliminating logging roads, both of which were
ineligible activities under Grant W-46-D-22. Yet, Parks and Recreation staff claimed labor costs
including these ineligible activities under Grant W-46-D-22.




                                                  6
The State of Vermont asset management system (VISIONS) manual, 101 VISION System
Overview, dated July 2003, page 7, item G Maintenance of Transaction Support Documentation,
states “departments are expected to maintain their own supporting records.” Code of Federal
Regulations 50 CFR 80.14 Application of Federal Aid funds states “(a) Federal Aid funds shall
be applied only to activities or purposes approved by the regional director.”

Horse trails are primarily used for recreation. Eliminating logging roads is a responsibility of
Parks and Recreation, and this responsibility is often made a requirement of the companies that
built the logging roads to do the logging. The grant proposal for W-46-D-21 and W-46-D-22
identified five activities and 23 grant objectives, but none of them included maintaining horse
trails and removing logging roads.

As pointed out above, Parks and Recreation did not have access to time codes for wildlife habitat
development. In addition, Parks and Recreation was not informed of the more stringent
accounting requirements accompanying Federal grants, and Fish and Wildlife did not adequately
monitor Parks and Recreation activities. As a result, costs of maintaining horse trails and
eliminating logging roads became part of the labor costs claimed under Grants W-46-D-21 and
W-46-D-22. Because these activities and the time spent working on them were not separately
identified in log books, we were unable to identify the amount of wildlife habitat development
costs associated with them.

       Recommendations
       We recommend that the FWS:

       1. Resolve the $29,120 (Federal share $21,840) of unsupported labor costs claimed
          under Grant W-46-D-22 and , in the future, require time sheets to support secretarial
          labor costs.

       2. Resolve the issue of using Federal Assistance funds to maintain horse trails and to
          remove logging roads.

       3. Assist Fish and Wildlife in developing policies and procedures for obtaining services
          from other State agencies that are properly supported and include only eligible
          Federal Assistance or license fee reimbursable activities.

       Department Response
       The Department did not address the resolution of the $29,140 in unsupported labor costs.
       It agreed “that the coding system was deficient for use by Forests, Parks and Recreation
       staff charging time to Grant W-46-D-22 during the audit period.” In addition, the
       Department acknowledged that there were inadequate communications and/or monitoring
       that led to grant charges for ineligible activities. With regard to resolution of the third
       recommendation the Department stated, “However, both of these deficiencies (the coding




                                                7
       system and inadequate communications and/or monitoring) were corrected during SFY
       04 with new coding procedures and policy guidelines regarding eligible activities
       verbally communicated to affected staff. We do not anticipate any future labor charges
       by Forests, Parks, and Recreation staff to Grant W-46-D.”

       With regard to the secretarial labor charges to both programs, the Department stated,
       “Effective July 1, 2004, the secretarial employee is now coding labor costs.”

       Office of Inspector General Comments
       The Department’s response did not indicate specifically whether it agreed or disagreed
       with each of the recommendations. The Department should indicate whether it agrees or
       disagrees with Recommendations A.1 and A.2 above. With regard to Recommendation
       A.3, we believe that the actions taken by the Department will resolve the issue and result
       in implementation of the recommendation. FWS should obtain copies of the new coding
       procedures and policy guidelines. Additionally, FWS should obtain a copy of the
       secretary’s time sheet to ensure that time is being recorded as worked and charged to Fish
       and Wildlife and Parks and Recreation based on the actual time worked in each area.

       Because the response from the FWS Regional Office did not indicate whether FWS
       concurred with the findings and recommendations, FWS should address them and
       indicate in the corrective action plan whether it concurred with the findings and three
       recommendations.

B. Program Income
The Department earned $242,919 on grants for the operation and maintenance of wildlife
management areas ($55,289) and for aquatic education ($187,630). In addition, the Department
bartered with farmers to leave crops unharvested in exchange for additional acreages to farm on
a wildlife management area.

The Department received program income of $47,394 in SFY 2002 and $7,895 in SFY 2003
from the sale of timber on Wildlife Management Areas for which the department received
operation and maintenance funds under Grants W-46-D-21 and W-46-D-22. These grants for
Wildlife Habitat Development included the following as one of its 10 objectives: “To alter an
average [of] 500 acres of wooded habitat annually via timber harvesting on Wildlife
Management Areas statewide.”

The Green Mountain Conservation Camps charged approximately 43 percent of its SFY 2003
costs to the Aquatic Resources Education Program Grant F-19-E-14. The Department charged
camp participants and collected $91,416 in SFY 2002 and $96,214 in SFY 2003 to offset camp
costs incurred. In addition to these collections were donations from organizations and
individuals to help participants cover the enrollment fee, but information was not available to
quantify the total of the donations.




                                                8
One agricultural lease on part of the Dead Creek Wildlife Management Area required the lessee
to pay $350 per month and to leave 10 acres of corn and 40 acres of other crops unharvested.
However, in exchange for leaving the crops unharvested, watchman services, and general
maintenance of the working farm facilities, no cash payments were made because the value of
the lessee-provided services exceeded the required cash payment.

According to 43 CFR Part 12.65, program income is gross income received by a grantee directly
generated by a grant-supported activity. Program income should be deducted from total grant
costs to determine net costs on which the grantor’s share will be based, or added to the project
funds to further eligible program objectives. In addition, the grant agreement should identify the
estimated amounts, sources, and method of accounting for the program income.

Department officials were unaware of requirements regarding program income earned on
wildlife management areas receiving Federal Assistance funds for their operation and
maintenance.

       Recommendations
       We recommend that the FWS:

       1. Resolve the issue of the unreported $242,919 of program income.

       2. Resolve the issue of the unreported value of the unharvested crops that the
          Department received in exchange for the leasing of additional acreages of wildlife
          management areas to farmers.

       3. Assist the Department in training its staff to ensure proper reporting of program
          income in future grants.

       Department Response
       The Department’s “accounting staff were unaware of the program income requirements
       as explained in this audit.” The Commissioner of the Department stated that, “At no time
       in the past, during previous audits or otherwise, has program income been identified as a
       reporting deficiency of my Department. In fact, we believe there have been mixed
       messages or policy guidance on this topic, and we do not believe we should be held liable
       for this. We fully anticipate complying with the new guidance provided in 43 CFR Part
       12.65.”

       Office of Inspector General Comments
       The Department’s response indicated that it had been given different guidance on this
       issue by the FWS Regional Office. Accordingly, it did not agree with the finding and the
       three recommendations. We believe that FWS should discuss the finding and
       recommendations with Department officials and convince them of the importance of




                                                9
       implementing the recommendations. In addition, FWS should address the finding and
       recommendations in the corrective action plan.

C. Diversion of Use
The Department purchased Buck Lake with Sport Fish Restoration Act funding from Grant F-16-
L-1, in September 1970, but turned a three to five acre portion of the site over to the Division of
Law Enforcement to be used as a shooting range. The Division of Law Enforcement prohibited
the public access to the shooting range. The FWS agreed to a land exchange to resolve the
diversion of use of this parcel of land in a December 25, 1985, letter from the Assistant Regional
Director for Federal Assistance. However, the Department could find no evidence in either the
State lands division or any Agency of Natural Resources records to confirm that this land
exchange took place.

As a result, we concluded that the Department did not comply with 50 CFR §80.6, which states
under Prohibited Activities, “The following are not eligible for funding under the Acts, except
when necessary for the accomplishment of projects proposed as approved by the regional
director. (a) Law enforcement activities conducted by the State to enforce the fish and game
regulations.”

In addition, the Department did not comply with 43 CFR §12.71, which states: “(b) Use. Except
as otherwise provided by Federal statutes, real property will be used for the originally authorized
purposes as long as needed for that purpose, and the grantee or subgrantee shall not dispose of or
encumber its title or other interests.”

Both the State of Vermont and the FWS have known about this issue for many years. Neither
organization could explain why the issue has not been resolved. The property has not been used
for its originally intended purpose for many years.

       Recommendation
       We recommend that the FWS work with the Department to resolve the diversion of use
       of this property acquired with Federal Assistance funds.

       Department Response
       The Department is anxious to clear up this situation. The Department strongly disagreed
       with the OIG conclusion that the property had not been used for its originally intended
       purpose for many years. It stated that fishing access always has been and continued to be
       offered on the property. It stated that the range is located 1.29 kilometers from the lake
       access and that the Law Enforcement Division only used the range a total of six days
       annually. The Commissioner: 1) believed the issue was resolved in the past but had no
       documentation to verify that; 2) disagreed that fishing access was restricted to the public
       but agreed to erect better signage to notify the public, and 3) proposed a land-swap




                                                10
       agreement or a memorandum of agreement to articulate acceptable uses of the property
       and identify a decision-maker of record regarding use.

       Office of Inspector General Comments
       Although the Department did not specifically state whether it agreed with the finding and
       recommendation, it wants to resolve the issue by implementing our recommendation. We
       consider the Department’s proposed action to be appropriate. FWS should address the
       finding and recommendations in the corrective action plan.

D. Personal Property Management
The Department has not kept its computer equipment and real property asset inventory current,
and its system does not identify the funding source for acquired assets.

Department officials at the Pittsford and Barre District offices did not have an inventory of
Department computer equipment. The Agency for Natural Resources information technology
(IT) computer specialist maintained a database of IT equipment (computer, printers, etc) for all
Department locations. However, this database and the State’s asset management system,
VISIONS omitted four laptop computers at the two district offices visited. The Agency IT
computer specialist was able to identify from other records that one of the laptops was purchased
in May 2000 and two were at least 5 years old. The fourth could not be identified.

In accordance with the State of Vermont Bulletin No. 1, Asset Management Policy, item lll,
Non-Depreciated Assets, item 2: “Departments will be required to track in the Asset
Management Module all computer equipment regardless of cost…”

Department officials stated that VISIONS has not been kept up to date due to staff shortages.

We concluded that because the asset management system has not been kept up to date and the
Department did not keep its own inventory of assets, the Department could lose control of
sensitive computer equipment.

       Recommendation
       We recommend that the FWS assist the Department in creating an up-to-date inventory of
       personal property that identifies the funding source as Federal Assistance, license fee, or
       other.

       Department Response
       The Department stated that a physical inventory was conducted in May 2004. In June
       2004, the computer inventory maintained by the Information Technology Division of the
       Agency of Natural Resources was updated and synchronized with the State’s Vision
       System assets database. In addition, a new procedure is being developed, intended to




                                               11
       ensure the timely creation, updating and synchronization of new computer equipment
       asset records on a continuing basis rather than on the yearly update cycle previously
       performed. In addition, it stated they will explore opportunities for identifying the
       funding source within this database.

       Office of Inspector General Comments
       Although the Department did not indicate whether it agreed with the finding and
       recommendation, we consider the Department’s proposed action to be appropriate.
       An important aspect of the inventory or asset database should be the identification of
       acquisition funding. FWS should address the finding and recommendation in the
       corrective action plan.

E. Land Management System
The Department did not have an adequate land management system to maintain control of land
purchased with Federal Assistance, license fees, or other funds. We found that for five of six of
the latest Federal Assistance purchases, the Department summary and legal land records did not
record the Federal Assistance contribution. These land acquisitions were the following:

         Acquisition Name        Acres          Funding Source         Date Purchased
             Tiny Pond            497                W-48-L              10/07/1996
             Wheelock            1980                W-49-L              10/17/1996
         Middlesex Notch          603                W-50-L-1            06/12/1998
           Holland Pond           115                W-52-L-1            10/15/1998
              Brouha               73                W-54-L-1            08/16/2000

We expanded our review of land purchased with Federal Assistance grants and compared a
listing of Federal Assistance land acquisition grants to State land records. The listing we used
was prepared by the FWS regional office and provided to the Department in December 1999.
The comparison showed that of 63 grant-funded acquisitions, 53 were documented by the State
summary record as Federal Assistance funded. However, when we reviewed the legal files,
which were supposed to support the summary record, only four files documented that the
funding source was Federal Assistance.

When we attempted to review land acquired with license fees, the Department could not furnish
a list of lands purchased with State license fees. However, we tested two transactions that took
place within the audit period and found that one land parcel and one hatchery building purchased
with license funds were not documented in the land records as follows:




                                                12
       (1)     The Lapham’s Bay access, a 2.7 acre boating access site purchased in SFY 2002
       with license funds, was shown in the State lands legal file as funded by a combination of
       Federal and State funds, and

       (2)    The Ed Weed Fish Culture Station was built on State lands with license funds, but
       the source of funds was not documented in the land file.

Land acquisition records are the responsibility of the Department of Forests, Parks and
Recreation, State Lands Division (Division). The Agency of Natural Resources has assigned to
the Division the task of maintaining the official records for Agency lands. These records include
the legal file and the summary record.

In accordance with 50 CFR § 80.18, the responsibility for maintaining adequate records for
assets is with the State: “In the conduct of activities funded under the Acts, the State is
responsible for: (c) The accountability and control of all assets to assure that they serve the
purpose for which acquired throughout their useful life.” The State of Vermont does not have
any regulations or guidelines to assist program managers in the management of state lands.

We concluded that the Department has not exercised sufficient control over the documentation of
the acquisition of lands to ensure that the Federal Assistance interest or State license fee interest
is documented.

       Recommendations
       We recommend that FWS require the Department to:

       1. Update the State Lands summary and legal records files to ensure that land
          transactions are properly recorded.

       2. Modify the land management inventory and records system so that they identify those
          assets purchased with license revenues and Federal Assistance funds and that the
          percentage Federal Assistance interest in land is documented.

       Department Response
       The Department stated that the Department of Forests, Parks, and Recreation maintains
       land records. It concurred that the record-keeping system for land acquisitions needs
       substantive attention to ensure use and management compliance over time, in accordance
       with the stated purposes of acquisition. The Commissioner stated that “the Department
       will explore options for improving the current system, in terms of historical
       documentation as well as providing new recording procedures and guidance for future
       additions to the system. As an alternative, he said that the Department will also consider
       creating its own (i.e., Fish and Wildlife Department-specific) land ownership addendum
       that identifies funding sources.”




                                                 13
         Office of Inspector General Comments
         Although the Department did not state whether it concurred with the finding and
         recommendations, we consider the Department’s proposed actions, if implemented, to be
         appropriate to resolving the finding and implementing the recommendations. FWS
         should address the finding and recommendations in the corrective action plan.

F. License Certifications
The Department’s license certifications for 2001 and 20022 included duplicate hunting and
fishing license holders. In accordance with 50 CFR § 80.10 (c) (5), an individual shall not be
counted more than once as a hunting or fishing license holder.

Department officials stated that the license procedures written as a result of the prior audit
finding inadvertently did not get distributed to the employee responsible for computing the final
certificate numbers. Even though the State received the minimum apportionment of grant funds,
the calculation is based, in part, on the number of license holders. Therefore, accurate counts are
necessary to ensure that each state receives its fair share of funds. For calendar year 2002 total
individuals holding fishing and hunting licenses, resident and non-resident, were overstated by
1,974. For calendar year 2001 the overstated licenses due to reporting duplicates totaled 1,031.

         Recommendation
         We recommend that FWS ensure that the Department follows its procedures for the
         elimination of duplicate license holders.

         Department Response
         The Department stated that, as noted in the finding, this is a communications oversight.
         The response stated that procedures exist and appropriate staff now has access to them.
         This problem should not occur again.

         Office of Inspector General Comments
         Although the Department did not state that it concurred with the finding, we consider the
         Department’s proposed action to be appropriate, if implemented, to resolve the finding
         and recommendation. FWS should address the finding and recommendation in the
         corrective action plan.




2
 License Certifications are received in the year following the year in which the licenses were sold. Accordingly, the
two most recent years of license certifications that were available for review were 2001 and 2002.




                                                         14
G. Land and Water Conservation Funds
The Department maintained approximately 313 Management Units (access areas, fish culture
stations, pond sites, stream banks, and wildlife management areas) partly with Federal
Assistance funds during SFYs 2002 and 2003. However, 15 properties within these units were
purchased with Land and Water Conservation funds, which made them ineligible to receive
Federal Assistance funds for their operation and maintenance.

The 15 properties were maintained either under Grants F-18-D-21 and F-18-D-22, or W-46-D-21
and W-46-D-22. They were acquired with Land and Water Conservation funds by the
Department between the years 1966 and 1969.

Chapter 522 FW 7.5B of the Service Manual states that Federal Assistance funds cannot be used
to operate or maintain properties or facilities purchased or constructed under the Land and Water
Conservation Fund Act (16 U.S.C. 4601-8). Section 6(f)(1) of the Land and Water Conservation
Fund Act of 1965 requires States to operate and maintain by acceptable standards, at State
expense, the particular properties or facilities acquired or developed for public outdoor recreation
use. Chapter 660.2 of the National Park Service’s L&WCF Grants Manual requires applicants
for assistance to submit a signed and dated project boundary map that clearly delineates the area
to be included in the project. Generally, the area will be the entire park, open space, or
recreation area being developed to which the Land and Water Fund property is being added.
Areas to be excluded should also be identified.

When we notified Department officials of this issue, they stated that they were aware that Land
and Water conservation funds had been used to purchase some lands, but the associated
maintenance charges to Federal Assistance grants were considered relatively small compared to
the total State lands and sites maintained.

We concluded that Federal Assistance funds had been used for the operation and maintenance of
properties purchased with Land and Water Conservation funds. We believe that the restricted
areas should be defined by the Land and Water Conservation Fund project agreements approved
by the National Park Service or its predecessor, the Heritage, Conservation, and Recreation
Service, and the NPS L&WCF Grants Manual, which requires that the project area be delineated
by a project boundary map.

Because of the condition of the Department’s land records (see Finding E above) we were unable
to identify project areas or quantify an amount of Federal Assistance maintenance costs
associated with the 15 properties acquired with Land and Water Conservation funds.

       Recommendations
       We recommend that FWS:

       1. Request an opinion from the Solicitor about whether the prohibition against using
          Federal Assistance funds for operation and maintenance, as contained in the Land and
          Water Conservation Act and its implementing regulations, applies to entire project




                                                15
   areas or is limited to the properties acquired with Land and Water Conservation
   funds.

Based on the Solicitor’s opinion,

2. Resolve the issue of Federal Assistance funds used during SFYs 2002 and 2003 to
   operate and maintain the 15 properties acquired with Land and Water Conservation
   funds.

3. If necessary, require the Department to locate Land and Water Conservation project
   agreements and project boundary maps.

4. Assist the Department in developing a methodology to discontinue using Federal
   Assistance funds in the future to operate and maintain project lands acquired with
   Land and Water Conservation funds.

5. If necessary, change its Service Manual to state that Federal Assistance grant funds
   cannot be used to operate and maintain Land and Water Conservation project areas as
   defined in the Land and Water Conservation Act project agreements or project
   boundary maps.

Department Response
The Commissioner stated, “We were unaware of the LWCF restrictions. We will await
additional guidance from the USFWS prior to taking any additional action.”

Office of Inspector General Comments
The Department did not indicate whether it concurred with the finding and
recommendations. FWS should address the finding and recommendations in the
corrective action plan.




                                       16
                                                                                                   Appendix 1



                 VERMONT AGENCY OF NATURAL RESOURCES
                     DEPARTMENT OF FISH AND WILDLIFE
                 FINANCIAL SUMMARY OF REVIEW COVERAGE


                Grant               Grant           Claimed             Questioned Costs**
               Number              Amount            Costs∗           Total        Federal Share
           F-18-D-21                    340,000          255,000
           F-18-D-22                    530,000          397,500
           F-19-E-13                    132,861             99,646
           F-19-E-14                    132,861             99,646
           F-22-D-40                    130,000             87,101
           F-22-D-42                     18,085                 0
           F-22-D-43                     33,064                 0
           F-22-D-44                     20,200                 0
           F-22-D-45                     55,108                 0
           F-22-D-46                    249,944                 0
           F-22-D-47                     19,205                 0
           F-23-R-12                     60,000             45,000
           F-31-D-11                  1,840,813        1,380,610
           F-31-D-12                  2,287,295        1,372,377
           F-34-R-4                      92,000             69,000
           F-34-R-5                      92,000             69,000
           F-35-R-4                     340,000          192,210
           F-35-R-5                     409,600          250,000
           F-36-R-4                     564,000          394,282
           F-36-R-5                     564,000          400,000
           F-100-R-18                     5,000              3,679
           F-100-R-19                     5,000              3,750
           F-100-R-20                     5,000              3,750
           FW-17-T-28                   357,000          226,534
           FW-17-T-29                   382,000          260,313


∗
 The amount includes the Department recorded amounts during the audit period including indirect costs.
**The questioned costs for Grant W-46-D-22 are for unsupported transfers to the Department of Forests, Parks and
Recreation. See finding A.




                                                       17
                                                                                                   Appendix 1


                Grant               Grant           Claimed             Questioned Costs**
               Number              Amount            Costs∗           Total        Federal Share
           FW-19-C-11                    40,000             30,000
           FW-19-C-12                    41,000             30,750
           W-33-R-40                     75,168             44,408
           W-33-R-41                     71,542             53,657
           W-34-R-39                    147,000          110,250
           W-34-R-40                    153,000          114,750
           W-35-R-34                      6,500              4,875
           W-35-R-35                      6,500              4,875
           W-35-R-36                      6,500              4,875
           W-37-R-34                     25,000             18,750
           W-37-R-35                     29,000             21,750
           W-38-R-34                     72,000             20,720
           W-38-R-35                     72,000             16,151
           W-41-S-31                    486,033          344,620
           W-41-S-32                    486,033          324,153
           W-45-R-22                     67,090             50,318
           W-45-R-23                     75,000             46,834
           W-46-D-21                    402,025          294,504
           W-46-D-22                    407,500          304,679      $29,120                 $21,840
           W-47-R-9                      44,500             33,030
           W-47-R-10                     44,500             33,375
           W-51-R-1                      41,000             18,852
           W-56-L-1                     226,000          167,000
                                   $11,689,927        $7,702,574      $29,120                 $21,840

∗
 The amount includes the Department recorded amounts during the audit period including indirect costs.
**The questioned costs for Grant W-46-D-22 are for unsupported transfers to the Department of Forests, Parks and
Recreation. See finding A.




                                                       18
                                                                 Appendix 2



VERMONT DEPARTMENT OF FISH AND WILDLIFE
             SITES VISITED

         District Offices:          Pittsford
                                    Barre
                                    Essex Junction
                                    St. Johnsbury

              Wildlife Management Areas (WMA):
         Bird Mountain WMA            Mud Creek WMA
         Buck Lake WMA                Maquam Bay WMA
         Fairfield Swamp WMA          Wenlock WMA
         Sand Bar WMA

                           Hatchery:
   Ed Weed Fish Culture Station and the Gordon House at the Ed
                  Weed Fish Culture Station

                      Fishing Access Areas:
                        Van Everett access
                          Vantines access
                          King Bay access
                         Pelots Bay access
                         North Hero access
                        Stoney Point access
                           Horican access
                      Dillenbeck Bay access
                       West Swanton access
                         South Bay access
                      Big Salem Pond access
                     Little Salem Pond access
                     Pensioners Pond access
                        Clyde River access
                     Greenwood Lake access
                        Island Pond access

                     State Police Dispatch:
                           St. Albans




                               19
                                                                              Appendix 3



                           STATUS OF AUDIT FINDINGS
                            AND RECOMMENDATIONS


 Recommendation                  Status                    Action Required

A.1,A.2, B.1,B.2,B.3, C,   Finding Unresolved    Provide a response to each finding and
D, E.1,E.2, F,             and Recommendations   recommendation that states concurrence
G.1,G.2,G.3,G.4,G.5        Unimplemented         or non-concurrence. Provide a corrective
                                                 action plan that includes the target date
                                                 and the official responsible for
                                                 implementation of the recommendation or
                                                 an alternative solution. Unresolved
                                                 findings and unimplemented
                                                 recommendations remaining at the end of
                                                 90 days (after December 16, 2004) will be
                                                 referred to the Assistant Secretary of PMB
                                                 for resolution and/or tracking of
                                                 implementation.




                                          20
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
